LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

December 7, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE: NO. 19-1257:
RE: NO. 19-1258:

MARK BRNOVICH, ET AL. V. DEMOCRATIC NATIONAL COMMITTEE, ET AL.
ARIZONA REPUBLICAN PARTY, ET AL. V. DEMOCRATIC NATIONAL
COMMITTEE, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Judicial Watch, Inc. and
Allied Educational Foundation on December 7, 2020, I caused service to be made pursuant to
Rule 29 on the following counsel for the Petitioners and Respondents:
PETITIONERS ARIZONA
REPUBLICAN PARTY, ET AL.:
Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
202-879-7643
macarvin@jonesday.com
PETITIONERS MARK
BRNOVICH, ET AL.:
Joseph Andrew Kanefield
Attorney General's Office
2005 N. Central Ave.
Phoenix, AZ 85004
602-542-8017
allyson.flanagan@azag.gov

RESPONDENT KATIE HOBBS,
ARIZONA SECRETARY OF STATE:
Jessica Ring Amunson
Jenner & Block LLP
1099 New York Avenue NW
Suite 900
Washington, DC 20001
202-639-6023
JAmunson@jenner.com
RESPONDENTS DEMOCRATIC
NATIONAL COMMITTEE, ET AL.:
Marc Erik Elias
Perkins Coie, LLP
700 13th St, NW, Ste. 800
Washington, DC 20005-3960
202-434-1609
melias@perkinscoie.com

This service was effected by depositing three copies of the Brief of Amici Curiae Judicial
Watch, Inc. and Allied Educational Foundation in an official “first class mail” receptacle of the
United States Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 7th day of December 2020.

